<html>
<title> - EDUCATING FOR THE 21ST CENTURY: BRINGING TODAY'S CLASSROOMS INTO THE DIGITAL AGE</title>
<body><pre>[Senate Hearing 113-821]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-821

 EDUCATING FOR THE 21ST CENTURY: BRINGING TODAY'S CLASSROOMS INTO THE 
                              DIGITAL AGE

=======================================================================

                             FIELD HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING EDUCATING FOR THE 21ST CENTURY, FOCUSING ON BRINGING TODAY'S 
                    CLASSROOMS INTO THE DIGITAL AGE

                               __________

                   NOVEMBER 22, 2013 (Charlotte, NC)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-268 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
      



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland
PATTY MURRAY, Washington
BERNARD SANDERS (I), Vermont
ROBERT P. CASEY, JR., Pennsylvania
KAY R. HAGAN, North Carolina
AL FRANKEN, Minnesota
MICHAEL F. BENNET, Colorado
SHELDON WHITEHOUSE, Rhode Island
TAMMY BALDWIN, Wisconsin
CHRISTOPHER S. MURPHY, Connecticut
ELIZABETH WARREN, Massachusetts

                                     LAMAR ALEXANDER, Tennessee
                                     MICHAEL B. ENZI, Wyoming
                                     RICHARD BURR, North Carolina
                                     JOHNNY ISAKSON, Georgia
                                     RAND PAUL, Kentucky
                                     ORRIN G. HATCH, Utah
                                     PAT ROBERTS, Kansas
                                     LISA MURKOWSKI, Alaska
                                     MARK KIRK, Illinois
                                     TIM SCOTT, South Carolina
                                       

                    Pamela J. Smith, Staff Director

        Lauren McFerran, Deputy Staff Director and Chief Counsel

               David P. Cleary, Republican Staff Director

                                  (ii)


































                                CONTENTS

                               __________

                               STATEMENTS

                       FRIDAY, NOVEMBER 22, 2013

                                                                   Page

                            Committee Member

Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................     1

                               Witnesses

Smith, Scott S., Chief Technology Officer, Mooresville Graded 
  School District, Mooresville, NC...............................     5
    Prepared statement...........................................     6
Thibault, Melissa Rihm, Vice Chancellor for Distance Education 
  and Extended Programs, North Carolina School of Science and 
  Mathematics, Durham, NC........................................     9
    Prepared statement...........................................    11
Miller, Dale, High School Student, Mooresville High School, 
  Mooresville, NC................................................    12
    Prepared statement...........................................    13
Obaei, Raha, 6th grade Teacher, Kennedy Middle School, Charlotte-
  Mecklenburg Schools, Charlotte, NC.............................    15
    Prepared statement...........................................    16
Graham, Eric, High School Student, Phillip O. Berry, Academy of 
  Technology, Charlotte, NC......................................    17
    Prepared statement...........................................    18
O'Leary, Sean, 5th grade Teacher, Hawk Ridge Elementary, 
  Charlotte, NC..................................................    18
    Prepared statement...........................................    20
Burnett, Mazzanni, 8th grade Student, Kennedy Middle School, 
  Charlotte-Mecklenburg Schools, Charlotte, NC...................    21
    Prepared statement...........................................    22

                                 (iii)

  

 
 EDUCATING FOR THE 21ST CENTURY: BRINGING TODAY'S CLASSROOMS INTO THE 
                              DIGITAL AGE

                              ----------                              


                       FRIDAY, NOVEMBER 22, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                     Charlotte, NC.
    The committee met, pursuant to notice, at 2:18 p.m., in the 
Media Room, Phillip O. Berry Academy of Technology, Hon. Kay 
Hagan presiding.
    Present: Senator Hagan.
    Dr. Carroll. Good afternoon. My name is Dr. Curtis Carroll. 
I'm the principal of Phillip O. Berry Academy of Technology. It 
is an honor today to have U.S. Senator Kay Hagan here today. It 
is really exciting as the principal of this school to hear your 
remarks earlier and the emphasis you put on history and knowing 
your history, because as of this moment, 1 hour and 50 years 
ago, one of the greatest Americans of all time was 
assassinated.
    So it's ironic for me to have you here to talk about 
education and technology, because our former president was all 
about technology, dating to 1961, when he made that great 
speech in March about ``We will put a man on the moon,'' and 
then in 1969, 6 years after he was assassinated, to have 
someone actually step on the moon. I know, better yet, I 
believe that we have some individuals in this room today, 
students that are going to make a change in our society.
    But I only have 3 minutes, so I would be remiss if I did 
not introduce our great school board. I say that because I have 
a personal relationship with our school board. The first person 
I would like to introduce is our chair, Mary McCray. We also 
have Ericka Ellis-Stewart, who has a daughter here at Phillip 
O. Berry; Dr. Joyce Waddell; Amelia Stinson-Wesley; and Tom 
Tate.
    Anything that we could do to make your stay here today--we 
will be here. Mr. Hall, my administrative assistant, is here. 
If there's anything that you need, we will be here to help you.
    We'd also like to recognize all of our distinguished 
guests. Have a good day.

                   Opening Statement of Senator Hagan

    Senator Hagan. Dr. Carroll, I thank you so much. It is such 
an honor to be here at the Phillip O. Berry Academy. I 
appreciate everybody else being here, too.
    I want to make an opening statement, so I'm going to stand 
up. Can you hear me?
    The Senate Committee on Health, Education, Labor, and 
Pensions will come to order. This is an official hearing that 
we are hosting outside of Washington, here in North Carolina, 
on behalf of the Senate Committee on Health, Education, Labor, 
and Pensions.
    Just as Dr. Carroll said, before we begin, I do think it is 
fitting to take a moment to remember the life of our former 
president, John F. Kennedy, on the 50th anniversary today of 
his tragic assassination. He led our Nation during a time of 
rapid cultural and technological change. And as we discuss new 
ways to use technology in the classroom, we should remember his 
ambition, his drive, and we should let it inspire us to achieve 
more than we thought was possible for the good of our students 
and for the good of our country.
    Dr. Carroll, Dr. Morrison, thank you for graciously hosting 
us here today at the Phillip O. Berry Academy of Technology for 
the hearing. When I stepped into the school from outside, some 
of the Junior ROTC members welcomed me to Phillip O. Berry, 
that was great, and it is an honor to be here.
    I really want to say thank you to the Junior ROTC students 
and the executive council students, who so graciously welcomed 
not only me, but all of the guests that are here this 
afternoon. I saw a lot of the Junior ROTC students all over the 
campus as we've been walking through.
    And, of course, I want to thank all of the witnesses that 
are here for sharing your thoughts and for your valuable 
insight. We are lucky to have such dedicated and talented 
school leaders, educators, and students joining us.
    The school board and county commissioners, thank you for 
being here. It is the people here on the ground that know the 
local society, the local people, and what works best for your 
local community. Thank you for being here today; and also, for 
your activity and your involvement in the school system.
    We've really got some extremely bright students here. I've 
met a number of them already when we had a little time to get 
together, and I really look forward to the students' comments 
that are on the panel today.
    Please know, I'm not only a Senator, I'm also a mother of 
three. Please know that everything that we do on this committee 
is for you, the students, and for the future. And I encourage 
all of the students to keep up the excellent work.
    There's no better place than here in North Carolina to be 
having a hearing on education technology. Our State has long 
been a leader in education innovation, going back to 1795, when 
we in North Carolina opened the doors to the first public 
university in the country. There were the Princetons and the 
Yales, but they were private schools. North Carolina had the 
first public university in our Nation. I think everybody in 
North Carolina should know that and should take great pride in 
it.
    We've also recently taken a leading role in using 21st 
century technology in the classroom. Eight years ago North 
Carolina implemented a plan to transition our K-12 public 
schools to a digital learning environment. Every one of our 
2,600 current schools have access to high-speed broadband 
Internet. We have better connectivity, and we have faster 
Internet in our classrooms than any other State in the Nation.
    Ensuring that North Carolina is ahead of the curve in 
connecting our students with the latest technology has long 
been a priority of mine, dating back to when I served in the 
State Senate. I served 10 years in the State Senate. In 2006, 
we established the State's first virtual public school to help 
meet North Carolina's constitutional requirement to provide 
every child a sound basic education. As co-chair of the Budget 
Committee at that time, we helped invest $40 million in the 
school connectivity initiative to expand the number of public 
schools that had broadband connectivity.
    Across the country, people look to North Carolina as a 
leading State in improving student performance with the help of 
technology. I look forward to hearing from Scott Smith and Dale 
Miller about the interesting and fascinating results that 
they're seeing in Mooresville. They now rank third in our State 
in student achievement, jumping up from the bottom quarter just 
a few years ago.
    Mooresville's graduation rate has increased 25 percent in 5 
years. Most impressively, they have accomplished this with one 
of the lowest per pupil expenditures in the State, currently 
ranking 99th out of 115 districts.
    The Montlieu Academy of Technology, which is an elementary 
school in High Point, was previously designated a low 
performing school. Students there have made impressive academic 
gains by using tablet computers and interactive software where 
they're learning at their own pace. Since starting the digital 
learning program, students at Montlieu have achieved a 9 
percent gain in literacy, an 11 percent boost in math, and a 25 
percent gain in science.
    I, personally, have been to Montlieu, a K-5th grade school, 
and I've experienced being in the classroom. Seeing these young 
people being able to use technology, teaching their parents, in 
many cases, about how they're going to do their homework, it's 
incredibly impressive.
    These examples are numerous in our State. We understand 
that students need 21st century tools if they're going to 
compete in today's 21st century economy. Our schools are making 
outstanding progress, but we all know we still have work to do. 
We've got to ensure that every student in North Carolina and 
across the country has access to cutting edge technology.
    According to the FCC, half of America's classrooms today 
have slower Internet access than the average American home. So 
the schools have much less access than the average home. Only 
10 percent of schools have the bandwidth necessary for high 
quality digital learning.
    Our Federal education law that directs States, districts, 
and schools on how to implement technology--I'm astounded to 
tell you that it is 11 years overdue for reauthorization. The 
law that is telling States what they need to do is 11 years 
overdue. I'm incredibly frustrated at the gridlock that has 
prevented progress on this bill.
    I introduced a bill this year to update and modernize the 
outdated technology law. My bill would give States more 
authority to use funds to improve technology infrastructure and 
to train teachers and principals on how to best incorporate new 
technology in the classroom. I think we all know here, 
especially the faculty, that you have to provide training for 
the faculty in order to transmit these learning tools to the 
young people.
    Providing professional development for educators is a key 
component of this bill. Teachers will have the support they 
need to use the new technology to redesign curricula to be most 
effective for students. This bill will also authorize States to 
access local needs for using technology and authorize funding 
for districts that are furthest behind.
    It also includes a competitive grant for districts and 
schools that have already excelled in incorporating new 
technology to continue pushing their programs further. So just 
because they're doing a good job, this isn't going to punish 
them.
    Too many schools across the country, both urban and rural, 
are dramatically behind in implementing technology. This puts 
the students in these very rural areas behind their peers as 
they move to college or to a career. It's hard to think of a 
career today that does not require a basic understanding of 
technology. In manufacturing, which is one of our State's most 
important industries, we are seeing a shift from relatively 
low-skill assembly line positions to more high-skill jobs.
    Companies such as GE Aviation in Wilmington, NC, are 
looking for employees trained to operate computerized equipment 
and sophisticated machinery. In Charlotte, Siemens needs 
employees with laser and robotics training in order to work in 
their gas turbine factory.
    In order to prepare our young people for the 21st century 
careers, we know we have to bring their classrooms into the 
21st century. Every school needs to be online with access to 
computers and to tablets and high-speed Internet connection. 
And we've got to give our outstanding educators the training 
they need to use this technology.
    Every child, whether sitting in a classroom in Charlotte or 
in Tarboro, NC, deserves the same opportunities for success. 
We've got an important opportunity to achieve these goals with 
passage of my education technology bill. I am proud that our 
State leads the country in education innovation, which enables 
me to really bring this committee here to Phillip O. Berry 
Academy to learn more about the technologies that are helping 
our students be successful now and into the future.
    I want to take the findings that we discuss today and 
replicate these models around the country to ensure that every 
child is learning in a 21st century classroom.
    Now, I would like to introduce our witnesses that are here 
on the panel.
    First, we have Scott Smith, who is the chief technology 
officer for Mooresville Graded Schools, one of the only public 
school systems in the Nation to issue laptops to every child in 
grades 4 through 12. We also have Melissa Thibault, the vice 
chancellor for Distance Education and Extended Programs at the 
North Carolina School of Science and Mathematics.
    Then we'll hear from Dale Miller, on my left, a high school 
student from Mooresville High School. And then Raha Obaei, a 
6th grade teacher from Kennedy Middle School.
    Following Raha will be Eric Graham, a high school student 
from right here at Phillip O. Berry Academy, and then Sean 
O'Leary, a 5th grade teacher from Hawk Ridge Elementary. And 
last but certainly not least, Mazzanni Burnett, an 8th grade 
student at Kennedy Middle School.
    Scott, we're going to begin with your testimony.
    And to all of you, because of time constraints, please 
limit your remarks to 5 minutes. Once each of you has concluded 
with your remarks, we will begin the question and answer period 
of the hearing.
    Mr. Smith.

    STATEMENT OF SCOTT S. SMITH, CHIEF TECHNOLOGY OFFICER, 
      MOORESVILLE GRADED SCHOOL DISTRICT, MOORESVILLE, NC

    Mr. Smith. Thank you, Senator Hagan. Thank you all for 
having me here. I am very proud to be the chief technology 
officer with Mooresville Graded Schools just north of here, 
about 30 minutes north.
    In 2007, Mooresville Graded Schools launched a digital 
conversion. This conversion was to meet the needs of all 
students, no matter where they come from, what their 
socioeconomic background is, or what their family situation is. 
We wanted to level the playing field for all students. The way 
that we did that was putting a laptop in the hands of every 
single student.
    I am the technology guy. I get into all the gadgets, but 
I'm also an educator. My passion is curriculum and instruction, 
and that is the passion for what is going on in Mooresville. 
It's a technology project, but it is about changing the 
teaching and learning environment, and it is about doing what's 
best for kids.
    We are now in our sixth year of doing this. It really has 
been quite an experience. When you think of putting laptops in 
the hands of 4,000 kids, it's quite an undertaking. But it's 
been the most rewarding thing that we have ever done as 
educators in Mooresville.
    You mentioned, Senator Hagan, about the broadband access 
and having access to the Internet. That has been vital to our 
success in making things happen in Mooresville. We have very 
strong networks, in terms of wireless connectivity and access 
to the Internet.
    My philosophy on that is kind of like the movie, Field of 
Dreams. If you build it, they will come. And students use every 
bit of bandwidth that you give them. It's been a great learning 
opportunity for us.
    The environment that we have created in our classrooms is 
that of those 21st century skills that you mentioned, Senator 
Hagan, about creativity, communication, critical thinking, and 
collaboration. You walk into one of our classrooms, and there's 
this hum that is going on of kids interacting with each other, 
working on project-based learning, new types of skills, instead 
of the teacher lecture type that we all probably grew up with. 
Those types of things don't exist in Mooresville like they used 
to in the past.
    You also mentioned professional development. That has been 
one of the biggest things that we have emphasized since the 
onset. We actually gave teachers laptops first, long before we 
did students, and that was so that we could work with our 
teachers to--they didn't grow up with this. So it's new for 
them, and they're learning. We spent extra time with them.
    We have a summer institute for our teachers to come to. 
It's completely voluntary. But I'm very proud to say that this 
past summer, 92 percent of our teachers came to our summer 
institute.
    On top of that, our local school board has been so 
supportive of our efforts. They have given us 11 early release 
days. We basically have one a month. Teachers stay all day. 
Students go home at noon, and teachers attend professional 
development and training in the afternoons. That has been vital 
to our success. That way, we're not doing it after school, and 
we're not doing it on Saturdays. The school board was 
instrumental in making sure that that happened for us, and we 
are extremely grateful for that.
    The impacts that this has had in Mooresville--there's the 
anecdotal stuff that you see. You walk in and you see student 
engagement, and kids are very involved in what's going on. 
They're working on their activities and projects. But for the 
hard data, as you mentioned, Senator Hagan, our graduation rate 
is up, and our dropout rate is down. Student discipline is way 
down. And when you don't have to deal with student discipline, 
you can deal with more things that are more important, like 
curriculum and instruction and professional development and 
those types of things.
    This has also been an economic engine for our community. We 
work with the Chamber of Commerce. We work with Economic 
Development on doing what's right for our students and what's 
right for our community. So it has actually increased our 
enrollment. We're having more people move into our district 
because of this initiative. So it's really been an economic 
change agent for our district.
    We have visitors who want to come to Mooresville to see 
what we're doing. So that in itself is an economic advancement. 
The hotels in town love us. But it's been a great thing. I 
think one of the crowning things for us is that President Obama 
chose Mooresville Middle School to come to last June to 
announce his initiative, ConnectEd, to bring that high-speed 
Internet to every school in the Nation, and we're extremely 
proud of what has happened in Mooresville.
    Thank you.
    [The prepared statement of Mr. Smith follows:]
                  Prepared Statement of Scott S. Smith
                 overview of mgsd's digital conversion
    MGSD's Digital Conversion program is a one-to-one (1:1) laptop 
program. The goal of this initiative is to integrate mobile technology 
with research, multimedia projects and three-dimensional learning. In 
2007, Dr. Mark Edwards, superintendent shared there was a significant 
digital and economic divide. There were students who had access at home 
to technology and resources, and some who had none. That was a real 
driving component for the digital conversion to create equity of 
opportunity for all.
    Five-thousand MacBook laptop computers have been deployed to every 
student in 3d-12th grade as well as nearly 500 licensed educational 
staff across the district. The driving concept has been to have 
students ``own'' these district-provided devices during the full school 
year, taking the devices home after class and bringing them back in the 
morning for classroom use. Educators and learners alike have access to 
these instructional tools 24/7 for all 180 school days. This program is 
innovative on many levels; for many Mooresville students, the school-
issued laptops are the first that their families have ``owned.'' 
Integrating laptop computers has significantly enhanced the level of 
student interest, motivation and engagement in learning. The laptops 
provide students and staff with constant access to classroom materials 
and multimedia tools, supplementing classroom learning.
                            student focused
    Throughout the Digital Conversion program, MGSD is living its 
motto: every child, every day. By providing equitable access to 
technology to every child, MGSD has all but erased the ``digital 
divide'' faced prior to the initiative. In a district where the free 
and reduced rate rose to 40 percent in 2011, providing technology for 
every child has been a win-win for the students, school system and 
community at large. Additionally, enabling each child with the 
transformative power of technology makes learning relevant and hugely 
centered on each student's individual needs.
    MGSD has made a concerted effort to become as student-focused as 
possible, promoting classrooms that inspire and engage students of all 
ages. Through challenge and project-based learning, students 
demonstrate transformative learning on a daily basis--moving beyond 
mere proficiency in both scope and depth. Through the Digital 
Conversion program, teachers have consciously evolved into 
instructional facilitators, allowing students to become the focus of 
learning and teaching. This individualized instruction has been met by 
parents and constituents with great enthusiasm. All parties want what 
is best for their child and this environment makes it possible. The 
communication to parents is enhanced through out the year and 
especially during deployment of the laptops where administrators share 
with parents what this means for their child.
    Perhaps the most profound impact of MGSD's digital conversion on 
student success cannot be measured quantitatively. It is only by 
stepping into a Mooresville classroom and observing the learning in 
progress that the true value of technology integration and student 
engagement on MGSD students is apparent.
                        professional development
    MGSD has made professional development for our teachers and staff a 
focal point of the digital conversion. We organize, plan and implement 
an annual summer institute for teachers and engages in 10 early release 
individual professional development days throughout the school year to 
empower teachers to master technology in a way that benefits both them 
and their students. We are very involved in ongoing, sustained and 
targeted professional training that occurs throughout the district. 
These sessions are led by technology facilitators, media specialists, 
teacher leaders, and outside vendor partners. MGSD's administrators and 
teachers are making the leap as digital immigrants to connect with the 
digital natives--our students.
    MGSD teachers have worked to create a curriculum framework that 
fully uses and embraces the use of technology and digital content. This 
``shift'' to digital resources has been a long yet rewarding process as 
students are now more engaged in the classroom experience and have the 
most up-to-date and relevant resources and information at their 
fingertips.
    Teachers and administrators have formally integrated digital 
software into classroom instruction. Specifically, teachers use an 
online learning management system that includes Web 2.0 tools. Web 2.0 
instructional resources are used every day in classroom instruction. 
These tools include, but are not limited to, blogs, discussion forums, 
wikis, chats, and e-mail. The use of digital tools at MGSD has carved 
the path for an open, shared learning environment across its eight 
campuses, fostering collaborative two-way learning. Creative materials 
are converted to a digital platform and then shared with other 
students, teachers and parents across the district, involving the whole 
community in students' creative expressions.
    Because MGSD has made technology a key tool for education, teachers 
are now viewed as collaborators by their students. Instead of educators 
dictating what they want their students to know, teachers have become 
facilitators, allowing students more freedom to discover and explore. 
It is a simple and poignant change, shifting the focus away from the 
teacher and toward the student.
                    replicable blueprint for success
    Since 2009 MGSD has hosted over 3,000 visitors from approximately 
40 States. They come to inquire about how MGSD has had such great 
success and how they can replicate what has occurred. Many districts 
have duplicated MGSD's model and are starting to see similar results. 
Avery County, NC; Rutherford County, NC; Piedmont City, AL, and Baldwin 
County, AL are just a handful of MGSD success stories.
    In addition, MGSD plans a summer connection for other school 
districts to bring teams of people for an inspiring and enlightening 3 
days of training. During the 3 days we offer strands for: 
superintendents & district administrators, school-based administrators, 
technicians, and teachers. MGSD organizes content specific training for 
teachers, strategic and logistical planning assistance for 
administrators, and all-important training for technology department 
staff.
                           impact on learning
    While there are plenty of schools where technology initiatives have 
made a difference on a small scale, district-wide successes are harder 
to identify. MGSD is an example of district wide success that is a 
direct result of commencing the Digital Conversion program. In 2012 
MGSD was tied for second in North Carolina's ``Schools of Distinction'' 
ranking. MGSD as a whole continues to improve in this ranking, having 
started at 38th (out of 115) in the first year of the digital 
conversion. In total, this marks a 16 percent growth in achievement 
ranking.
    What is particularly remarkable about this achievement is that MGSD 
is one of the two lowest per pupil expenditure districts out of the Top 
10 districts, and the lowest per pupil expenditure district in the Top 
7 ranked districts. In addition, MGSD enrolls more than double the 
amount of students than the district tied for second, and double the 
students of the district in third place. Despite MGSD's economic 
disadvantages, the district demonstrates real positive results.
    Students' test scores across individual schools and subject matter 
(e.g., mathematics) have continued to increase with every passing year 
of the Digital Conversion program. Mooresville High School, End-of-
Course (EOC) composite exam data reveals an increase of 23 percent 
since the start of digital learning. This trend is replicated across 
age groups as well. For MGSD third graders, students' reading, math and 
composite EOC scores have all improved significantly over the past 4 
years. Likewise, for Mooresville Middle School, EOC composite test 
scores improved to 87 percent in 2012, marking a 15 percent growth 
since 2007.
    Another exciting result of the Digital Conversion program has been 
the increase in graduation rate and simultaneous decrease in dropout 
rate and increase in college going rate for graduating students. In 
2011, MGSD was second in North Carolina for graduation rate, having 
improved from a 77 percent graduation rate in 2007 (the first year of 
digital conversion) to a 91 percent graduation rate in 2011.
    Simultaneously, the Mooresville High School dropout rate has 
decreased by 48 students per year since 2005 (pre-digital conversion) 
and the college going rate of Mooresville graduates has increased by 12 
percentage points since 2006.
                       public/private partnership
    MGSD staff, students, and community at large are fully invested and 
immersed in this project. Likewise, these stakeholders are committed to 
the program's development, enhancement and evolution. As demonstrated 
by the funding for the Digital Conversion program, the community has 
repeatedly supported and responded to calls for monetary contributions 
toward this initiative. In addition, the community has buy-in in the 
initiative through continued support. One small example is that all the 
local businesses, through the work of the Chamber of Commerce and 
Economic Development, have agreed to have free Wi-Fi in shops and 
restaurants. Students know they can travel almost anywhere downtown and 
get online to access resources. In a unique collaboration between MGSD 
and the Town of Mooresville, they have supported the digital 
conversion. As a result all public/town-owned facilities like the 
public library, fire departments, police stations and public parks WiFi 
is available! Most notably, in August 2013 the local Internet service 
provider MI-Connection announced free Internet access for any 4th-12th 
grade student in MGSD that qualifies for the national free and reduced 
lunch program.
    The MGSD board of education has and continues to provide strategic 
leadership, policy change and direction for the digital conversion 
initiative. Through the original 2008 Strategic Plan and subsequent 
2011 revision these stakeholders helped guide and provide supporting 
policy to ensure the sustainability and longevity of the Digital 
Conversion program. For example, 4 years ago, MGSD had a standard 
acceptable use policy (AUP). However, with the onset of this technology 
initiative and increased digital requirements, MGSD decided that the 
district AUP was no longer adequate and should include extended legal 
ramifications. Subsequently, in 2008 the MGSD board of education 
decided to support the change from an AUP to a required use policy 
(RUP), which includes more stringent policies surrounding technology. 
This is an example of the board of education instilling support and 
security surrounding the technology in use at MGSD.
    In 2011 MGSD was invited to speak at the White House for the 
``Digital Promise'' about the need for digital access and resources for 
all students. Digital Promise is a new public/private partnership aimed 
at accelerating the inclusion and access to new education technologies 
for schools, including the formation of a ``League of Innovative 
Schools'' that represents best practices. MGSD was invited to join the 
League of Innovative Schools, and in fact hosted the League's first 
meeting.
    MGSD has been identified as a ``lighthouse district'' for 
technological success at the national and State level. This year, MGSD 
was accepted into the highly competitive Consortium for School 
Networking Leading Edge Cadre. At the 2012 Digital Learning Day events, 
MGSD hosted one of only four live video feeds shown nationwide. And as 
a crowning achievement, in June 2013 MGSD was host to President Obama 
where he announced his new platform ``ConnectEd'' to get high speed 
Internet to every classroom in the country!

    Senator Hagan. Thank you, Scott.
    Melissa Thibault.

    STATEMENT OF MELISSA RIHM THIBAULT, VICE CHANCELLOR FOR 
DISTANCE EDUCATION AND EXTENDED PROGRAMS, NORTH CAROLINA SCHOOL 
             OF SCIENCE AND MATHEMATICS, DURHAM, NC

    Ms. Thibault. Thank you so much. It's a pleasure to be 
here.
    The School of Science and Mathematics is a residential 
school in Durham. But ever since it was founded over 30 years 
ago, we've known that sharing what we do is really, really 
important. It's a part of our mission from the onset. The 
investment that the State has made would make its greatest 
return if we could serve students, not only from every 
congressional district statewide, but also improve public 
education statewide.
    We have been very cognizant of the fact that to those who 
much is given, much is expected. And the school has, since its 
inception, embraced that public education improvement aspect of 
its mission. We have a particular challenge going forward. But 
technology and distance education allow us to challenge the 
limits of what's possible in public education.
    Before the rise of the Internet--I know some of you may not 
remember that. Some of the children who are in here have never 
known what that was like. But for 20 years, we have been doing 
distance education through video conferencing. Our video 
conferencing program is two-way interactive video conferencing 
with a very high level of engagement.
    Here are these courses that you can come to the school in 
Durham and take, but they're also available to you in remote 
areas, rural areas. It leverages the State's strategic 
development in infrastructure. Senator Hagan was talking about 
the information infrastructure that we have in the State, which 
is unparalleled. We are so fortunate to have the information 
highway which became NCREN and now working toward last-mile 
connectivity with MCNC in order to make sure that everyone has 
the bandwidth they need to get the information that they need 
in their homes and schools.
    Telepresence used to be really expensive. But now we're 
helping schools set up situations where students can take 
courses with an $80 web cam and $60 speakers, and they can 
participate in our courses. We have 16 high-level courses 
taught through video conferencing, including AP Calculus and AP 
Statistics, Genetics and Biotechnology, Aerospace Engineering--
which I saw some of the eyes light up among our ROTC folks 
here.
    You can just think about what a benefit this is, 
particularly in small schools, rural schools, coastal schools. 
Before, if there were three students ready for an advanced 
course, like an AP Calculus course, those three students, 
because of staffing needs, may have gone unserved. But now, 
with the program that we have in place, those students are able 
to take high-level courses.
    There's a young woman named Taylor who went to Cape 
Hatteras High School. She told State legislators last year that 
if she didn't have pre-calculus and AP statistics from the 
School of Science and Mathematics, she would have run out of 
math at her school at the end of her sophomore year. Taylor 
understood that to be competitive in college, you need more 
mathematics, and she's now at NC State.
    That is echoed by a young woman, Madison, who is a senior 
at the Union High School in Sampson County. Madison would have 
run out of her courses in her junior year, but she wanted to 
take more mathematics, more than she was required to take, and 
we made that possible for her.
    Now, we're part of the UNC system, and so applications to 
our residential program continue to be on the rise. We have to 
use technology to serve more families in North Carolina. So in 
2008, we launched an online program. NCSSM Online is a very 
unique blended program. Much of the course work is delivered 
online, but there is a component of residential in summers and 
on weekends when students come in to do some of their work, do 
labs, and work in conjunction with their peers.
    We have 26 courses, which are some of the most advanced 
courses in the State, including topics beyond AP, like 
Multivariable Calculus or Applied Chemistry and Engineering. We 
have 241 students in that program. Among the most academically 
advanced in the State, they come from small schools and large 
4-A schools. We are supplementary to their academics.
    For example, Juan, a senior at Green Hope High School in 
Raleigh, will leave that school having completed a four-
semester sequence in computational science, including 
Bioinformatics and Computational Chemistry; a summer course in 
Primate Ecology; field research on Endophytes, which I had to 
look up; and a summer research experience in a lab at NCSU that 
is looking to turn cockroaches and moths into bio-bots to aid 
in disaster recovery, all in addition to the courses he's 
taking at his local high school.
    NCSSM recognizes that developing digital video and digital 
courses gives us a tremendous amount of legacy products. 
Therefore, we make materials available for sharing online and 
have for more than a decade. In our repository of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bdeee9f8f0fdf3feeeeef0">[email&#160;protected]</a> 
and YouTube channel, we already have a million hits from 
teachers that are using our high-definition cat dissection or 
virtual labs that we have in place that they can use at their 
convenience. These materials really leverage the investment the 
State has made in our school.
    These efforts did not spring up overnight. They are the 
result of strategic continued investment in our school, as well 
as a recognition that if you work in Durham, you can have a 
profound effect from Murphy to Manteo. Our State has been very 
insightful in investing in the school, as well as in the 
infrastructure that we are taking advantage of.
    [The prepared statement of Ms. Thibault follows:]
              Prepared Statement of Melissa Rihm Thibault
    From the time the North Carolina School of Science and Mathematics 
opened in 1980, we have always made it a part of our mission to share 
what's happening on our 680-student residential campus. From the 
earliest days of the school, NCSSM faculty and staff understood that 
North Carolina's investment in the Nation's first public, no-cost 
residential school focused on mathematics and science would have its 
greatest return if it served not only students from every North 
Carolina congressional district, but if the school also made the 
statewide improvement of public education through outreach a part of 
its mission.
    We began this work before the rise of the Internet when we began 
offering our high-level mathematics and science courses to low-wealth 
and rural high schools through interactive video conferencing. Now in 
its 20th year, our two-way, interactive video-conferencing course 
program leverages the State's strategic development of infrastructure, 
using the Information Highway and later NCREN, as well as the last-mile 
connectivity efforts that MCNC continues to this day. Where 
telepresence was once expensive and technically complicated, we are now 
helping schools set up $80 web cams and $60 speakers to begin 
participating in 16 advanced courses like AP Calculus AB and AP 
Statistics, Genetics and Biotechnology, Forensic Material Evidence and 
Accident Investigation, and Aerospace Engineering, where we serve about 
450 students each year.
    Think of what a benefit this is to small schools, particularly in 
coastal or deeply rural areas. Before digital learning, if they had 
three students ready to participate in an advanced course like AP 
Calculus, their staffing demands meant that those three students 
probably weren't served. We had one young woman, Taylor, at Cape 
Hatteras High School tell State legislators last fall that if she 
hadn't had the chance to take pre-calculus and AP statistics through 
NCSSM, she would have run out of math at her high school after her 
sophomore year. Taylor understood that in order to be competitive in 
college, she would need more mathematics, and is now at NC State. This 
thought was echoed by Madison, a senior at Union High School in Sampson 
County, who said that she had taken all of the math courses available 
at her school by the end of her junior year and was still hungry for 
more.
    Now that we are a part of the UNC system, applications to our 
residential program are steadily on the rise, so we have used 
technology to serve more families. In 2008, we launched NCSSM Online, a 
blended program that combines online coursework with time on campus 
during selected weekends and the summertime. Our 26 online courses are 
some of the most advanced in the State, with topics beyond the Advanced 
Placement curriculum like Multivariable Calculus, Applied Chemistry and 
Engineering.
    The most academically advanced kids from high schools across the 
State--the smallest rural schools up to some large 4-A high schools--
are among the 241 students taking advantage of NCSSM Online to 
supplement their academics. One student at Green Hope High School in 
Raleigh, Juan, will leave NCSSM's Online program this year having 
completed a four-semester sequence of computational science courses 
including Bioinformatics and Computational Chemistry, as well as a 
summer course in Primate Ecology and Evolution, a field research course 
focused on Endophtyes, and a summer research experience with a lab at 
NC State that is working to turn cockroaches and moths into bio-bots to 
aid in disaster recovery. All of this is in addition to the courses 
he's taking at his local high school.
    NCSSM also recognizes that developing video and digital courses 
gives us a tremendous number of legacy products we can share. Through 
our <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="085b5c4d4548464b5b5b45">[email&#160;protected]</a> repository and YouTube channel, we have already shared 
materials developed in our residential and virtual programs with 
schools and teachers across the State over 1 million times. In 
collaboration with the Department of Public Instruction, we have 
developed and distributed digital content and full curricula that 
include virtual labs, interactive content, even a full high-definition 
cat dissection.
    These efforts didn't spring up overnight. They are the result of 
strategic, continued investment in our school and the recognition that 
the work we do in Durham can have a profound effect from Cherokee to 
Currituck Counties, from Murphy to Manteo.

    Senator Hagan. Thank you. I think a lot of people don't 
understand that North Carolina has the School of Science and 
Math, which is a boarding school, 11th and 12th grade. And they 
have to accept students from all 13 congressional districts 
across our State. It is a free boarding school, and it is 
something--how many students are there now?
    Ms. Thibault. We have 680 in residence, and we serve more 
than 700 in our distance education program.
    Senator Hagan. We'll ask questions later. But I do think 
it's important that people realize this is a public school that 
does have resources like this available to students all across 
North Carolina.
    Dale Miller, a high school student from Mooresville.

STATEMENT OF DALE MILLER, HIGH SCHOOL STUDENT, MOORESVILLE HIGH 
                    SCHOOL, MOORESVILLE, NC

    Mr. Miller. First, I'd like to thank you and all the staff 
here at Phillip O. Berry for having us today. It's an 
incredible honor. So thank you very much.
    Just to go off what Dr. Smith said, I'm the student aspect 
of what his brain child is here. But incredibly significant 
things have happened since Mooresville decided to go digital.
    Senator Hagan. I don't mean to interrupt you, but how long 
have you been there?
    Mr. Miller. Yes, ma'am. I've actually been there since 2d 
grade. So I've been there throughout the whole conversion.
    Senator Hagan. Great.
    Mr. Miller. I was in the 8th grade when every student in 
the district got these laptops to take home every single day 
for their educational use. Like Dr. Smith touched on, every 
teacher was trained to convert their old teaching style into 
what was going to be implemented in the classroom every day, as 
far as laptops, to help us get a feel for it, because we were 
very thrilled to get them. We were really, really bright-eyed 
to be able to receive these laptops.
    We realized that it wasn't necessarily the machine that was 
given to us. It was an education. We weren't fully aware of 
what that meant. But we were fully aware that our district 
opened a new door in the field of education, and we were all 
prepared to create our own unique and individualized path. I'm 
going to go in-depth on that.
    I think when asked, the largest effect that the digital 
conversion has on us is that our students are independent. It's 
truly astonishing how many possibilities are opened up through 
the technology that we have. And when asked to complete a 
project on any given topic, I think students in my school are 
really set free. It sounds weird when you think about it that 
way, but it's a liberating thing, because our possibilities are 
endless.
    I actually have an example. All seniors at my school, 
Mooresville High School, must complete a senior project to 
graduate from school. It epitomizes every single aspect of the 
technology we're given.
    First, we're given a topic. We can pick our topic. That's 
the individualized learning that we're doing. We get to choose 
our topic. We have to write a research paper. We use our 
MacBooks to do that as well. We correctly cite our sources. We 
learn how to do that.
    All college-level skills we need to be able to do, whether 
or not we learn it in high school, or we have to adapt in 
college. I think it's important that we're learning that now, 
as opposed to being thrown into the wild next year. It's always 
a good thing to be able to do that.
    So we choose our topic. We're individualized about that. 
Teachers love to see all kinds of crazy things going on. But we 
get to do that. We document all of our--we have 15 hours of 
service we have to do with that project, whatever it may be, 
and we document those hours with our MacBooks.
    We're also asked to create a product. That can be anything. 
Like I said, it's pretty individualized, and we can do what 
we'd like to do. So a lot of people choose to make their own 
videos or brochures, all using the laptops. That's something I 
think is really important, because they have that freedom to be 
able to do what they'd like to do. And I think that opens a lot 
of doors, as far as technology goes, in every school, and 
that's also important.
    So what exactly do I mean by that individualism? I would 
say that, quite frankly, I'm confident that the technology 
given to students all throughout the district in Mooresville 
Graded Schools is making them more and more apt to succeed in 
college, not necessarily getting into college, but succeeding 
in college. And I think those are two different things.
    No longer is it the teacher's job when you get to college 
to rely on how well we do. They're there no matter what. We 
have to adapt to that. They're not holding our hands anymore. 
We're not just there. We have to make an impact, and I think 
Mooresville allows us to get that individual sense that we can 
do that much more quickly and much more effectively than most 
other schools do with the technology we're given.
    Although Mooresville Graded School District is pioneering 
that push for educational technology, it's definitely not the 
only one that realizes the benefits of it. I myself am 
surrounded by students every single day who love to push 
themselves, and sometimes I don't even realize how motivated 
our students are based on what we have. I attribute that 
attitude that really benefits our system to the digital 
conversion. Without that, we wouldn't be--not necessarily the 
school district that we are, but as highly pushed and motivated 
as we are. Without the digital conversion, I don't think any of 
that would be possible.
    Therefore, I'm not alone when I say that with the tools 
given to me by my school district, I am well on my way to 
success, not just success in the world of education and 
learning, but the world that comes soon after and lasts a 
lifetime.
    [The prepared statement of Mr. Miller follows:]
                   Prepared Statement of Dale Miller
           personal perspective of mgsd's digital conversion
    Incredibly significant changes have been brought about by MGSD's 
decision to go digital. I was in the 8th grade when every student in 
the district, from 3d to 12th grade received the privilege to take a 
laptop computer home for educational use every day. Little did I, or my 
peers, know that the machines we would be using would shape our 
educational lives forever.
    Each of MGSD's teachers had been trained and familiarized with the 
technology prior to the students getting devices of their own. This 
enabled us as students to enter the conversion with a sense of 
direction and guidance. As you can imagine, each and every student was 
thrilled to be given this opportunity, and quickly learned how to 
correctly and efficiently use the machines. We were fully aware that 
our district had opened a new door in the field of education, and we 
were all prepared to create our own unique path.
           monumental advantages attributed to the conversion
    Of course, MGSD's Superintendent, Dr. Mark Edwards, set the 
educational advancement of the students as his first priority in the 
conversion. As previously imagined, students and teachers alike would 
now be capable of going online from their individual laptops and 
browsing the worldwide web for resources. Credible and interactive 
educational Web sites such as Education Portal and Khan Academy can 
easily be accessed since the conversion, and many teachers and students 
do use organizations such as these to further their learning.
    If a student is struggling with a particular topic, he or she can 
now easily email their teacher and ask for assistance. Whether the 
students are on vacation, holiday breaks, or simply at home for the 
evening, they can reach their teacher via email with the technology 
given to them. This has been an incredible help in my personal 
education, as I have never been one to shy away from asking questions. 
The e-mailing route allows a student to receive one-on-one instruction 
with his or her teacher with the flexibility of time and location.
    Apart from getting additional help on a given subject, the digital 
conversion within MGSD has even broadened the already vast array of 
courses offered. Many of my colleagues take courses online, and are 
linked with virtual schools around the Nation. If a particular class is 
not offered at my particular high school, the digital conversion allows 
a student to explore their interests and take that class online. Not 
only does the student get the personalized education they deserve, but 
they are also being connected with instructors and students nationwide.
                lasting effect of the digital conversion
    When asked about the largest effect that the digital conversion has 
on students, the first thing that comes to mind is independence. It is 
truly astonishing how many possibilities are opened up through 
technology such as that throughout Mooresville Graded School District. 
When asked to complete a project on any given topic, students in MGSD 
are, in a sense, set free. There are countless options and combinations 
of applications, Web sites and learning tools at that student's 
service, that a project is almost a liberating assignment. I feel that 
it is this attitude toward learning matched with the tools given in 
MGSD that makes for successful students, and successful lives.
    What exactly do I mean by that? Well, quite frankly, I am confident 
in saying that the technology given to Mooresville High School 
students, in particular, makes them more apt to succeed past MGSD, and 
into colleges nationwide. All high schoolers must face the reality that 
college isn't quite the same as what they have been accustomed to for 
their K-12 educations. No longer does the teacher's job rely on how 
well the students do. No longer does he or she hold students' hands and 
give them an easy way out. College students are, and must be, 
independent learners who are willing to accept just that. They realize 
that their learning style, and similarly their education, is different 
than that of their peers.
    Technology simply opens the doors to this sense of realization. The 
sooner a student can understand his or herself and learn on their own 
terms, the sooner that student will taste success. Instead of being 
deprived of individuality and expression, students in MGSD are 
encouraged to take their educations to the next level and create their 
own path.
    Although Mooresville graded school district is one that is 
pioneering the mass addition of technology to education, it is 
certainly not the only one that recognizes the benefits. Without even 
realizing it, I myself am surrounded by students who love to push 
themselves to achieve more, and have become more independent in doing 
so. I attribute this solely to the digital conversion. MGSD did more 
than hand students laptop computers, the district allowed kids to 
experience the most beneficial and exciting side of education. 
Therefore, I am not alone when I say that with the tools given to me by 
my school district, I am well on my way to success. Not just success in 
the world of education and learning, but the world that comes soon 
after and lasts a lifetime.

    Senator Hagan. Thank you very much, Dale.
    Ms. Raha Obaei, 6th grade teacher at Kennedy Middle.

          STATEMENT OF RAHA OBAEI, 6TH GRADE TEACHER, 
     KENNEDY MIDDLE SCHOOL, CHARLOTTE-MECKLENBURG SCHOOLS, 
                         CHARLOTTE, NC

    Ms. Obaei. Senator Hagan, members of the board of 
education, fellow panelists, and other distinguished guests, it 
is truly an honor to speak to you about a matter very dear to 
my heart. My name is Raha Obaei. I am a 6th grade teacher at 
Kennedy Middle School in Charlotte, NC, and I am a technology 
native.
    I grew up in an ever-changing, technology-forward school 
district that had first generation iMacs in each of our 
elementary classrooms. I was editor for my high school 
newspaper when we transitioned from a staff-wide, 6-hour layout 
night to one person working on InDesign and Photoshop.
    I went to college at the University of Missouri where I was 
in the first graduating class to no longer have a 20-page 
physical portfolio, but an e-portfolio on a tiny flash drive, 
all backed up by Microsoft Skydrive. I have since taken what 
I've learned and been exposed to in my own years of education 
and have applied them in my classroom. My students utilize 
technology in one facet or another every single day.
    As you know, North Carolina fully adopted the common core 
last year. With that change, I pooled resources by the only 
avenue I knew how--through the Internet and without a 
traditional textbook. My students spend as much time as 
possible in the computer lab with Google Chromebooks and on 
iPads, because I believe they are facilitating my students' 
learning beyond just factual recall and engaging them in a way 
a textbook simply cannot.
    With the limitless bounds of the Internet and technology, I 
can better differentiate learning for each of my students. If 
Johnny comes to me on a third grade reading level, he won't 
become frustrated because of a text he cannot read. I have a 
wide variety of resources available at my fingertips to better 
educate each of my students, whether they are reading at a high 
school level and have never felt challenged by a humanities 
class, or they just entered the country weeks ago with minimal 
language skills.
    I've seen firsthand the impact it has on student learning, 
as well. My students did, on average, 19 percent better on an 
assessment of a unit that was facilitated by technology than on 
an assessment in which a hard copy of a text was utilized.
    However, what is almost more important to me is the 
anecdotal evidence my students provide for me every single day. 
When explaining to my students that we will be learning the 
next unit by solely reading textbooks and writing notes, one of 
my students meekly raised his hand and asked if they were in 
trouble. Not only is it a disservice to our children to teach 
in ways that are outdated and not as effective, but it is 
apparently also a form of punishment.
    [Laughter.]
    All jokes aside, I know I am pushing my students' critical 
thinking skills and giving them the tools they need to succeed 
in their educational and professional careers. My students have 
been the ones that have brought to my attention that things we 
have learned in the beginning of this school year are now 
historically inaccurate.
    Our first unit of the year is on human beginnings and the 
stages of man. One of my students brought their tablet to me 
before class a couple weeks ago and showed me a news clip 
stating that archaeologists have found fossils of early man 
that may show that there were no distinct different stages of 
man.
    With this increasing access to new information, it is 
impossible for textbooks to keep up with the pace. I taught 
them something from a textbook, and, in turn, they taught me 
using technology.
    At the end of the day, when students leave my classroom, I 
want them to have mastered the content, because I do believe 
there is significance in knowing all about Mesopotamia. But, 
moreover, I want them to have the refined skills they can use 
outside social studies and sharpen their minds to one day be 
critical thinking citizens of the world.
    Thank you.
    [The prepared statement of Ms. Obaei follows:]
                    Prepared Statement of Raha Obaei
    Senator Hagan, Dr. Morrison, fellow panelists, and other 
distinguished guests, it is truly my honor to speak to you about a 
matter very dear to my heart. My name is Raha Obaei, I'm a 6th grade 
teacher at Kennedy Middle School in Charlotte, NC and I am a technology 
native. I grew up in a rapid, ever-changing technology-forward school 
district that had first-generation iMacs in each of our elementary 
classrooms. I was editor for my high school newspaper when we 
transitioned from a staff-wide 6-hour layout night to one person 
working on InDesign and Photoshop. I went to college at the University 
of Missouri where I was in the first graduating class to no longer have 
a 20-page physical portfolio, but an e-portfolio on a tiny flash drive 
and backed up by Microsoft Skydrive.
    I've since taken what I've learned and been exposed to in my own 
years of education and have applied them in my classroom. My students 
utilize technology in one facet or another every single day. As you 
know, North Carolina fully adopted the common core last year. With that 
change, I pooled resources--the avenue I knew best--through the 
Internet and without a traditional textbook. My students spend as much 
time as possible in the computer lab, with Chromebooks, and on iPads 
because I believe they are facilitating my student's learning beyond 
just factual recall and engaging them in a way a textbook simply 
cannot.
    With the limitless bounds of the Internet and technology, I can 
better differentiate learning for each of my students. If Johnny comes 
to me on a third grade reading level he won't become frustrated because 
of a text he cannot read. I have a wide variety of resources available 
at my fingertips to better educate each of my students--whether they 
are reading at a high school level and have never felt challenged by a 
humanities class or they just entered the country weeks ago with 
minimal language skills.
    I've seen first-hand the impact it has on student learning, as 
well. My students did on average 19 percent better on an assessment of 
a unit that was facilitated by technology than on an assessment in 
which a hard copy of a text was utilized. However, what is almost more 
important to me is the anecdotal evidence my students constantly 
provide for me. When explaining to my students that we will be learning 
the next unit by solely reading textbooks and writing notes, one of my 
students meekly raised his hand and asked if they were in trouble. Not 
only is it a disservice to our children to teach in ways that are 
outdated and not as effective, but apparently it is also a form of 
punishment.
    All jokes aside, I know I am pushing my student's critical thinking 
skills and giving them the tools they need to succeed in their 
educational and professional careers. My students have been the ones 
that brought to my attention that things we have learned in the 
beginning of this year are now historically inaccurate. Our first unit 
of the year is on human beginnings and the stages of man. One of my 
students brought their tablet to me before class a couple weeks ago and 
showed me a news clip stating archaeologists have found fossils of 
early man that may show that there were no distinct different stages of 
man. With this increasing access to new information, it is impossible 
for textbooks to keep up with the pace. I taught them from a textbook, 
and in turn they taught me using technology.
    At the end of the day, when students leave my classroom I want them 
to master the content--because I do believe there is significance in 
knowing all about Mesopotamia--but moreover I want them to have refined 
skills they can use outside social studies and sharpen their minds to 
one day be critical thinking citizens of the world.
    Thank you.

    Senator Hagan. You've given me a new word, native--what was 
it, a native techy?
    Ms. Obaei. Technology native.
    Senator Hagan. Technology native. Thank you very much.
    Now we have Eric Graham, a high school student right here 
at Phillip O. Berry Academy.

STATEMENT OF ERIC GRAHAM, HIGH SCHOOL STUDENT, PHILLIP O. BERRY 
              ACADEMY OF TECHNOLOGY, CHARLOTTE, NC

    Mr. Graham. Before I begin, I'd like to thank everybody 
here. Thank you for showing up and showing your support. I'd 
also like to give a special thanks to Mr. Hall and Dr. Carroll 
for selecting me to represent our school here, Phillip O. 
Berry. And it would also be a disservice if I did not recognize 
my mom for being here.
    [Laughter.]
    Senator Hagan. Yay, mom.
    Mr. Graham. Yay, mom. All right. Time for me to begin.
    Technology is important in school because it provides 
economically disadvantaged students an equal opportunity to 
advance along with the fast-paced digital world. I go to a 
school here, Phillip O. Berry, where many students own smart 
phones, yet do not own a computer or printer due to economic 
reasons.
    Ten years ago, my peers would not have had a problem 
completing class work, homework assignments, and projects, 
because it was acceptable to submit those items in a 
handwritten fashion. However, in the present, the acceptance of 
handwritten assignments has dwindled, and the demand for typed 
or digitally submitted documents has increased significantly.
    The shift from pen ink to printer ink is exemplified with 
college applications. A decade ago, many colleges accepted 
applications that were written by hand and sent in the mail. 
Present day, those same colleges require students to submit 
applications online only.
    My peers who do not own a computer with Internet access 
must depend on the technology provided here at school. 
Otherwise, they would not be able to apply to college. Although 
their smart phones are capable of Internet access, it is not 
recommended to apply to college solely from those devices.
    Technology in schools provides an equal opportunity to 
apply to college for all students. It also helps decrease the 
digital divide between the affluent and the economically 
disadvantaged.
    Technology is also important in school because it prepares 
students for the workforce. Many jobs in today's world utilize 
technology in the form of software and hardware to keep up with 
speedy demands. Technology in schools gives students exposure 
to what will be required once they begin to work in their 
career fields.
    Exposure to word processing software or engineering design 
software such as Autodesk Inventor, along with contact to 3-D 
printers gives students skills and experience that will allow 
them to be competitive applicants when it is time to look for a 
job, particularly in their desired career fields.
    As a 21st century learner, technology is important in every 
area of my life, especially in school. Nearly every assignment 
I complete requires some form of technology. Without technology 
in a world that is ever changing, I, my peers, and many other 
students would be lost amidst resources, ideas, and 
opportunities that could change the world for the better.
    In closing, I would like to remind you that technology has 
a significant impact on students' futures by giving them all 
equal opportunities at a college education and providing 
essentials that will lead to success in their chosen 
occupations after college.
    Thank you.
    [The prepared statement of Mr. Graham follows:]
                   Prepared Statement of Eric Graham
    Technology is important in school because it provides economically 
disadvantaged students an equal opportunity to advance along with the 
fast-paced digital world. I attend a school where many students own 
smart phones, yet do not own a computer or printer due to their 
economic situation. Ten years ago my peers would not have had a problem 
completing class work, homework assignments, and projects because it 
was acceptable to submit those items in a hand-written fashion. 
However, in the present, the acceptance of hand-written assignments has 
dwindled, and the demand for typed or digitally submitted documents has 
increased significantly. The shift from ``pen ink'' to ``digital ink'' 
is exemplified with college applications. A decade ago many colleges 
accepted applications that were written by hand, and sent in the mail. 
Present day, those same colleges require students to submit 
applications online only. My peers that do not own a computer with 
Internet access must depend on the technology provided at school, 
otherwise they would not be able to apply to college. Although their 
smart phones are capable of Internet access it is not recommended to 
apply to college solely from those devices. Technology in schools 
provides an equal opportunity to all students applying to college. It 
also helps shrink the digital divide between the affluent and the 
economically disadvantaged.
    Technology is also important in school because it prepares students 
for the workforce. Many jobs in today's world utilize technology in the 
form of software and hardware to keep up with speedy demands. 
Technology in schools gives students exposure to what will be required 
once they begin to work in their career fields. Exposure to word 
processing software or engineering design software such as Autodesk 
Inventor, along with contact to 3-D printers gives students skills and 
experience that will allow them to be competitive applicants when it is 
time to look for a job, particularly in their desired career fields.
    As a 21st century learner, technology is present in every area of 
my life, especially in school--nearly every assignment I complete 
requires some form of technology. Without technology in a world that is 
ever changing, my peers, and many other students would be lost amidst 
resources, ideas, and opportunities that could change the world.
    In closing I would like to remind you that technology has a 
significant impact on students' futures by giving them all equal 
opportunities at a college education, and providing essentials that 
will lead to success in their chosen occupations after college or in 
the workforce.

    Senator Hagan. Thank you, Eric, very much.
    Sean O'Leary, 5th grade teacher from Hawk Ridge Elementary.

         STATEMENT OF SEAN O'LEARY, 5TH GRADE TEACHER, 
              HAWK RIDGE ELEMENTARY, CHARLOTTE, NC

    Mr. O'Leary. Hello, Senator Hagan, CMS School Board, and 
other distinguished guests. And I also have to say hello to my 
mom.
    [Laughter.]
    My name is Sean O'Leary, and I am a 5th grade teacher at 
Hawk Ridge Elementary right here in Charlotte, NC. I am here 
today to share some successes that my students and I have 
accomplished in the classroom through the implementation of 
technology.
    Hawk Ridge Elementary began implementing a Bring Your Own 
Technology program in the spring of 2012, where students could 
bring their technology from home into the classroom. In the 
year and a half since then, I have seen throughout the entire 
school more engaged and independent learners, in large part due 
to the ready availability of technology in the classroom.
    Before I tell you about some of the amazing things that my 
students have been able to accomplish using technology, I want 
to clear up a couple of misconceptions pertaining to technology 
in the classroom. Many people that I've heard or talked to are 
quick to jump to the conclusion that placing iPads or laptops 
into the classroom is what teachers want because it makes our 
jobs easier. I have to respectfully disagree.
    I do think that having access to technology makes the 
classroom more efficient but never easier. It is my finding 
that access to technology actually creates many opportunities 
for teachers and students to challenge ourselves in the 
classroom and grow as 21st century learners.
    Teachers are challenged to create or find engaging 
activities that promote critical thinking and challenge their 
students without simply throwing a device in front of them with 
a fun math game. Teachers are charged with the task of staying 
current and up to date with changing technology, data, and 
effective methods to implement the ever-changing technology.
    Students are challenged to rely less on receiving step-by-
step instructions and to rely more on their natural inquisitive 
nature to find, solve, create, share, interpret, and deliver 
information that they discover in this technological world. 
Students are challenged with real world tasks that help them, 
as put by one of my students, ``develop a stronger sense of 
responsibility which we will need in the future.''
    The students in my classroom and throughout the entire Hawk 
Ridge Elementary School have been responsible for some truly 
incredible educational moments involving technology. Growing up 
in high school, social media was a part of my life, and social 
media has become an integral part of my classroom for 
facilitating discussion both in and outside of the classroom 
setting. Mr. O'Leary's class blog has become a place where 
students can share and discuss information in a safe and 
structured environment.
    I originally started the blog as a way to post 
supplementary information about topics we studied in class. 
``We talked about chemical changes today. Well, on the blog I 
put a couple of videos for you guys to check out at home.'' I 
was amazed at how quickly the students took over my blog. ``Can 
I post another video I found?'' ``I found a great Web site 
about this last night'' and ``I just had to comment on that'' 
became common phrases I heard as the students unpacked each 
morning.
    The kids were not only taking ownership of their learning, 
but they were sharing that learning with other kids. Currently, 
the blog is almost 100 percent kid-run and moderated. I take 
time to make sure that everything is appropriate and school 
related, but, so far, that hasn't been an issue.
    The kids have started posting about anything from books to 
movie trailers based on books to great math resource Web sites 
to cool science videos they are finding online. The students 
are taking the information I'm teaching them, making it 
relevant to their lives, and then sharing it with others. When 
I was in elementary school, the only way to discuss what we 
learned outside of class was by instant messaging or by passing 
a note the next day in school.
    Without the access to technology in the classroom, many 
kids are so willing to take information at its face value and 
move on. I've seen a deepening of understanding and a huge 
improvement in the motivation to learn and a responsibility in 
making learning important to themselves in my students since 
introducing technology to the classroom.
    I can't tell you how many of my friends that are teachers 
in other schools, cities, and States have asked me about having 
technology in my classroom every day. ``Aren't you nervous?'' 
``Are you worried about them using it incorrectly?'' ``How can 
you manage all of those students?'' My response has always come 
from one of my favorite authors, T.S. Eliot. He says, ``If you 
aren't in over your head, how do you know how tall you are?''
    Educators and students are ready for this change. We are 
ready, willing, and able to dive in head-first and embrace 
technology in the classroom.
    [The prepared statement of Mr. O'Leary follows:]
                   Prepared Statement of Sean O'Leary
    Hello Senator Hagan and other distinguished guests. My name is Sean 
O'Leary and I am a 5th grade teacher at Hawk Ridge Elementary School in 
Charlotte, NC.
    I am here today to share the successes that my students and I have 
accomplished in the classroom through the implementation of technology. 
Hawk Ridge Elementary began implementing a Bring Your Own Technology 
program in the spring of 2012. In the year and a half since then, I 
have seen, throughout the school, more engaged and independent learners 
due, in large part, to the ready availability of technology in the 
classroom.
    Before I tell you about some of the amazing things that my students 
have been able to accomplish using technology I want to try to clear up 
some misconceptions pertaining to technology in the classroom. Many 
people are quick to jump to the conclusion that placing iPads or 
laptops into the classroom is what teachers want because it makes our 
jobs ``easier.'' I respectfully must disagree. I do think that having 
access to technology makes the classroom more efficient but never 
``easier.'' It is my finding that the access to technology actually 
creates many opportunities to challenge ourselves in the classroom and 
grow as 21st century learners. Teachers are challenged to create or 
find engaging activities that promote critical thinking and challenge 
their students without simply throwing a device in front of them with a 
fun math game. Teachers are constantly challenged with the task of 
staying current and up to date with changing technology, data, and 
effective methods to implement the ever-changing technology. Students 
are challenged to rely less on receiving step-by-step instructions and 
rely more on their natural inquisitive nature to find, solve, create, 
share, interpret and deliver information that they discover in this 
technological world. Students are challenged with real world tasks that 
help them, as put by one of my students, ``develop a stronger sense of 
responsibility which we will need in the future.''
    The students in my classroom, and the students throughout Hawk 
Ridge Elementary have been responsible for some truly incredible 
educational moments involving technology. Social media has become an 
integral part of my classroom for facilitating discussion both in and 
outside the school setting. Mr. O'Leary's class blog has become a place 
where students can share and discuss information in a safe and 
structured environment. I originally started the blog as a way to post 
supplementary information about topics we studied in class. ``We talked 
about chemical changes today, well on the blog I put a couple of videos 
for you guys to check out at home.'' I was amazed at how quickly the 
kids took over the blog! ``Can I post another video I found?'' ``I 
found a great Web site about this'' and ``I just had to comment on 
that'' became common phrases I heard as the students unpacked each 
morning. The kids were not only taking ownership of their learning but 
they were sharing that learning with other kids. Currently the blog is 
almost 100 percent kid-run and moderated. I take time to make sure that 
everything is appropriate and school-related, but so far that hasn't 
been an issue. The kids have started posting about anything from books 
to movie trailers based on books to great math resource Web sites, to 
cool science videos they are finding online. The students are taking 
the information I'm teaching them, making it relevant to their lives, 
and then sharing it with others. When I was in elementary school I 
passed notes about a funny video and that was about it. Without the 
access to technology in the classroom many kids are so willing to take 
information at its face value and move on. I've seen a deepening of 
understanding and a huge improvement in the motivation to learn and a 
responsibility in making learning important in my students since 
introducing technology to the classroom.
    I can't tell you how many of my friends that are teachers in other 
schools, cities, and States have asked me about having readily 
available technology in my classroom. ``Aren't you nervous?'' ``Are you 
worried about them using it wrong?'' ``How can you manage all of 
that?'' My response to them has always come from one of my favorite 
authors, T.S. Eliot. ``'If you aren't in over your head, how do you 
know how tall you are?'' Educators and students are ready for this 
change! We are ready, willing, and able to dive in head-first and 
embrace technology in the classroom.

    Senator Hagan. Thank you very much, Sean.
    We have another student, an 8th grade student at Kennedy 
Middle School, Mazzanni Burnett.

   STATEMENT OF MAZZANNI BURNETT, 8TH GRADE STUDENT, KENNEDY 
  MIDDLE SCHOOL, CHARLOTTE-MECKLENBURG SCHOOLS, CHARLOTTE, NC

    Ms. Burnett. Thank you, Senator Hagan and other 
distinguished guests, for allowing me to attend this hearing 
and giving me the opportunity to share with you about my 
experiences regarding technology. My name is Mazzanni Burnett. 
I am an 8th grade student at Kennedy Middle School here in 
Charlotte, NC, and I am also a proud technology native.
    I am currently growing up in a world in which technology is 
used for various reasons and in many ways. I would like to 
share with you how I feel that the use of technology would be 
beneficial to my peers and I in school.
    I feel technology is beneficial in schools simply because, 
as a teenager, being able to have use of computers keeps me 
engaged and motivated.
    Now, I am not saying that the use of computers or any other 
technology device is all that keeps me interested in school, 
but it plays a big role. I have noticed in my short years of 
growing that since the use of technology has become a part of 
schools, a lot more kids my age are participating more in 
classrooms than before.
    I feel that some children my age may find that following 
along with a class while using textbooks is a bit overwhelming 
for various reasons. However, textbooks can be a good place to 
find some helpful information, but to be able to have access to 
computers in school to research information, I feel, is far 
more beneficial.
    For example, when my teacher gave me a project to complete 
on someone I refer to as a hero, I decided to write about the 
late Dr. Martin Luther King, Jr. And I knew exactly where to go 
to obtain any information needed to complete my assignment via 
the Internet.
    Computers are great tools to use for researching 
information and to be able to gain knowledge on the use of 
technology. I also feel that at this age, the exposure to 
computers in school is helping prepare me for bigger and better 
things.
    Everything that we use now on a day-to-day basis uses some 
type of technology, whether it is a computer, smartphone, iPod, 
or whatever piece of digital device it may be. Why not use it 
to learn? What better way to use technology?
    So in my conclusion, I think that the use of technology in 
schools is a great way and a great tool to use when it comes to 
education. Not only are we getting educated on basic studies, 
but we are also getting to explore our interests through the 
use of technology.
    [The prepared statement of Ms. Burnett follows:]
                 Prepared Statement of Mazzanni Burnett
    Thank you Senator Hagan and other distinguished guests for allowing 
me to attend this hearing and giving me the opportunity to share with 
you about my experiences regarding technology. My name is Mazzanni 
Burnett, I am an eighth grade student at Kennedy Middle School here in 
Charlotte, NC, and I am a proud technology native. I am currently 
growing up in a world in which technology is used for various reasons 
and in many ways. I would like to share with you how I feel that the 
use of technology would be beneficial to my peers and I in school.
    I feel technology is beneficial in schools, simply because as a 
teenager being able to have use of computers keeps me engaged and 
motivated. Now I am not saying that the use of computers or any other 
technology device is all that keeps me interested in school, but it 
plays a big role. I have noticed in my short years of growing that 
since the use of technology has become a part of schools a lot more 
kids my age are participating more in classrooms than before. I feel 
that some children my age may find that following along with a class 
while using textbooks a bit overwhelming for various reasons. However, 
textbooks can be a good place to find some helpful information, but to 
be able to have access to computers in school to research information I 
feel is far more beneficial. For example, when my teacher gave me a 
project to complete on someone I refer to as a hero, I decided to write 
about the late Dr. Martin Luther King, Jr., and I knew exactly where to 
go to obtain any information needed to complete my assignment via the 
Internet.
    Computers are great tools to use for researching information and to 
be able to gain knowledge on the use of technology. I also feel that at 
this age the exposure to computers in school is helping prepare me for 
bigger and better things. Everything that we use now on a day-to-day 
basis uses some type of technology. Whether it is a computer, 
smartphone, iPod, or whatever piece of digital device it may be. Why 
not use it to learn? What better way to use technology!
    So in my conclusion I think that the use of technology in schools 
is a great way and a great tool to use when it comes to education. Not 
only are we getting educated on basic studies, but we are also getting 
to explore our interests through the use of technology.

    Senator Hagan. Thank you very much, Mazzanni.
    That concludes the witnesses' testimony here. Now it's time 
for some Q and As.
    I think all of us here at this table--I am very fortunate 
to be here, but everybody here at this table is so fortunate to 
be in a school system that has the technology we have been 
talking about.
    We've mentioned how all the schools are connected in North 
Carolina, but certainly not all schools have the capability and 
the access to tablets and computers, like the technology that 
you have.
    It would be great, not only to see this kind of 
availability to every school in North Carolina, but, obviously, 
in other States across the country, because I truly believe 
that education is our future. And because it is our future, 
we've got to do what needs to be done to get young people 
prepared, to have access, to have equal opportunity.
    When we talk about achievement gaps, there's going to be 
huge achievement gaps between technology natives and those who 
do not have access to technology in their school. One of the 
things that comes to mind when we talk about technology is a 
time management issue. I'd love to ask a student and then maybe 
one of our teachers about how you oversee the use of the 
tablets and the access to be sure that students are either on 
task.
    I don't know what sort of firewalls you have, but how do 
you control that? Or is it even a problem?
    Mr. O'Leary, if you could start, you control for 
appropriateness. Even your blog, which sounds great.
    Mr. O'Leary. Obviously, the technology that's brought into 
the classroom has to be Wi-Fi capable, because our school has a 
Wi-Fi that is filtered it allows students to access the same 
Web sites that they would access on the school desktop 
computers. I'll admit when it first rolled out, it was the 
spring of my very first year of teaching. And as if I didn't 
have enough classroom management issues at that point, now 
throwing in 27 iPads was a little daunting.
    It's a talking point with your kids, this is an educational 
tool, that they're doing this not to play games, but to further 
their education. And just like any new curriculum or new thing 
that you put into the schools, it's just a management piece for 
teachers.
    Senator Hagan. Eric, how's that from your perspective?
    Mr. Graham. Our Internet use here at school is also Wi-Fi 
enabled, and we do have blocks placed on our Internet. We all 
sometimes try to find shortcuts, but I would say that it is 
very difficult to do so. It is managed here very well.
    Senator Hagan. Let me ask you a question. You mentioned 
that a lot of the students had smartphones. Do your teachers 
let you use those phones if they have Internet in the classroom 
to access that?
    Mr. Graham. Very much so. Particularly, in my AP Government 
class and in my AP English class, our teachers do allow us to 
use technology if we have some quick facts that we need to look 
up for an assignment, or there's a word that we don't know, and 
the dictionary is too slow to use.
    The phones are just quicker, and teachers are realizing 
that, and they're allowing us to use our smartphones nearly 
every day, every class period, for quick things and things that 
also relate to the curriculum that's being taught. So, yes.
    Senator Hagan. I want to move to another question.
    Dr. Smith, you mentioned 11 early release days that your 
school board has given to the county. I'm very curious about 
that, because I haven't heard anything like that before. So I 
guess you still comply with whatever the school calendar is 
that's set.
    Mr. Smith. Sure.
    Senator Hagan. And, also, how did Mooresville pay for the 
access and all the tablets?
    Mr. Smith. The early release days for us--6 years ago when 
we started, it was not 11. We sold this idea to our community 
that this is what we're going to do for students, because it's 
right for their future.
    Our superintendent, Dr. Mark Edwards, did a great job of 
selling to the community the fact that, if you go to the 
doctor, you want your doctor to have the latest and greatest 
medical knowledge so that he or she can treat you to the best 
of their ability. Why would you not want that for your child 
and your child's teacher?
    So he kind of sold that to the community as doing what's 
best for the kids, and so we started out with 6 early release 
days. It was very popular, and we had that for 2 years. But 
there's all kinds of community issues about that, especially 
with child care and things. So we had to deal with all those 
issues.
    But over time, it's become the accepted practice, and our 
school board, again, has been so supportive. And they've seen 
the results of what that's done for our teachers and how that's 
resulted in student achievement. Now we have the 11 days in the 
school calendar so that we can actually work with our teachers.
    The gentleman on the end was just talking about classroom 
management. We do professional development on classroom 
management with technology, because you can't walk into a 
classroom where 30 kids have access to the world at their 
fingertips and teach the same way you used to teach. It doesn't 
work. So you have to retrain in that professional development.
    To your second question about how we afford it, that's the 
No. 1 question we get in Mooresville all the time. Two things: 
One is we lease our machines, we're on a 4-year lease. We have 
built in that process to refresh. We all know we can go buy a 
computer today, and 10 minutes later, it's obsolete. But we've 
built that into our budget in terms of how we're going to 
refresh our machines throughout the years.
    The other thing is, as you stated in your opening remarks, 
we are one of the lowest funded school districts in the State. 
But yet we were able to do this. And it's about 
reprioritization of your funding. One example is we haven't 
spent money on textbooks in 6 years, with one exception, and 
that's high school AP classes where the college board says you 
have to use this text. But, otherwise, we haven't spent money 
on textbooks.
    We, in turn, spend that money on digital resources or on 
the technology to put it in the hands of every single student. 
There are some things that we gave up as well. But the overall 
end game is to do what's best for kids and to put this learning 
opportunity at their fingertips.
    Senator Hagan. That's great. That's a very good 
opportunity.
    Ms. Obaei, let me ask you a question. You mentioned 
students who come into your class that might have English as a 
second language and might be brand new. How does a new student 
get acclimated to a class that is already many, many miles 
ahead of that student who doesn't have that access? How does 
that child learn?
    Ms. Obaei. I'm lucky enough to have a lot of English as a 
second language students. My students, who are maybe on a lower 
level and maybe are brand new to the country and can barely say 
hello, they're not doing the same activity as my other students 
who have lived here their entire lives or students who have 
even been here for more than a couple of years.
    That's where technology has been really my saving grace. I 
have these students, and if they are brand new, we're working 
on English and literacy first, and then social studies second.
    For my students who have been here a little bit longer, 
it's kind of finding things that are closer to their reading 
level, closer to where they feel comfortable, where they are 
still being challenged and pushed, but also can grasp it and 
feel joy when they're actually understanding and learning a 
topic, as opposed to assigning them the same exact assignment 
as another student, and them just looking at you----
    Senator Hagan. So they just learn on their own level 
because of the technology.
    Ms. Obaei. Correct.
    Senator Hagan. Let me ask you a question, Dale. This is 
something that concerned me when I went to the Montlieu 
Elementary School, and that is when those students in K through 
5 matriculate into 6th grade, if that 6th grade middle school 
doesn't have the technology that they were used to in K through 
5, then they're going back to maybe either a smart board or a 
chalk board.
    What happens to them? I don't know if you've had friends in 
your school--I know you said you've been there the whole time--
that have transferred and moved someplace else or gotten out of 
that system. What happens?
    Mr. Miller. Right. Yes, ma'am. Well, being on a personal 
level with those friends, I talk to them about where--
especially in college, you know, people go off and they're kind 
of on their own, as opposed to having what they've had the last 
4 or 5 years. When they do take that step and move on to 
something new, and they're not necessarily given the same 
opportunities we are, it is tough for them.
    But I think that the skills learned and the drive given 
through the tools that we have really stays with the students. 
And it's not necessarily moving away from the district or 
moving away from all the technology. But they take with them 
their drive to do better.
    Senator Hagan. I'm more worried about when the younger 
people go to the next level if they don't have that access in 
their school systems. Has anybody seen an example like that?
    [Nonverbal Response.]
    Senator Hagan. No?
    Let me ask you a question, Ms. Thibault. You were talking 
about an $80 web cam and a $60 sound system. Most school 
systems, I do believe, could afford that kind of technology and 
that kind of expense.
    Ms. Thibault. Certainly.
    Senator Hagan. So what that brings to the students in North 
Carolina would be, as you said, an AP Calculus, a BC Calculus, 
the aerospace course. And the difference that would make to 
that rural county that had a handful of students that really 
wanted to take those classes would be the affordability and the 
availability to do that. Are other States doing that that 
you're aware of? Is this the norm now?
    Ms. Thibault. It depends. In online, yes. In online, they 
are using--our State virtual school is the second largest in 
the country. Many other States are investing in opportunities 
for students to take courses online at their own pace during a 
flexible time during the school day.
    As far as I know, the other STEM schools like us, the other 
statewide STEM schools, have neither the mandate to serve every 
congressional district equally nor the distance education 
program. That is a very unique North Carolina situation. I 
think that our school and our State has determined that 
regardless of zip code, we're going to make sure that you have 
the same opportunities to study aerospace engineering no matter 
where you live.
    Senator Hagan. How does that student who is a distance 
learner actually communicate with the teacher and with 
questions and other kinds of--like once you take the test, if 
you have questions on what you missed?
    Ms. Thibault. In our video conferencing courses, just like 
you and I are communicating--real time, synchronous.
    Senator Hagan. Do you schedule appointments? Is there 
office time?
    Ms. Thibault. They are in class during the day, being 
taught by an instructor, and in class with as many as six to 
eight other schools at the same time. So the students interact 
across sites as well as interacting with us.
    Senator Hagan. So their school system has to coordinate 
that class with their other classes that they're taking.
    Ms. Thibault. That's correct.
    Senator Hagan. Has that been a problem?
    Ms. Thibault. It is, often. We are in the catalog at many 
high schools, and students can sign up for our courses. But 
that's the advantage, also, of online, because it doesn't have 
to fit into someone's schedule. They can do that at their 
convenience, and then we could have some synchronous 
opportunities.
    Our online students take their courses often during the day 
because many don't have home access, and they need the time 
during the day to have access to the technology. But then they 
have evening web-based meetings with their teacher, and they 
sometimes have to go sit in the parking lot of McDonald's to 
get the Wi-Fi. We make sure they have a device, but not 
everyone has the connectivity they need in order to take full 
advantage of the programs from the School of Science and Math.
    Senator Hagan. Interesting.
    I was just curious, Dale, what your senior project is.
    Mr. Miller. Mine is actually a little bit different. Like I 
said, it's really open as to what you want to do. You can kind 
of choose. And what I'd really like to do--I decided to pursue 
the sport of bull riding. So it's a little bit----
    Senator Hagan. On the Internet?
    Mr. Miller. Yes, ma'am. I decided that as long as I could 
find the information I needed to do that, it would be something 
I'd like to pursue.
    Senator Hagan. Have you gotten on the bull yet?
    Mr. Miller. I have, yes, ma'am, and off of it very quickly.
    [Laughter.]
    Senator Hagan. That's great.
    Mazzanni, tell us a little bit more about your project on 
Dr. Martin Luther King. I went on a very interesting trip this 
year. It was an entity sponsored in Congress, and it was called 
Faith in Politics. We actually went to Tuscaloosa, AL, people 
of all faiths, people from Congress, people from different 
parts of the country, and it was an incredible historical and 
educational time for me to be with John Lewis as we walked 
across the bridge in Selma.
    So I'm just curious. What sorts of other research were you 
able to--one or two sites that you really liked on your Martin 
Luther King project?
    Ms. Burnett. Different sites included Myhero.com and 
History.com. To see what information was right and what 
information was wrong, I compared the information on both sites 
to make sure that they were valid.
    Senator Hagan. But how could you tell which one was right? 
Did you do multiple research?
    Ms. Burnett. Yes, ma'am. I used multiple Web sites.
    Senator Hagan. What feedback did you get from your teacher 
on that, as far as the research sites that you went on? Did 
anybody ever say, ``Oh, we're not crazy about that one.''?
    Ms. Burnett. Yes. Wikipedia.com.
    [Laughter.]
    Senator Hagan. Interesting.
    Sean, when you first started teaching, did you have--tell 
me about the professional development that was available to you 
to use technology? And you, too, probably are a technology 
native. But what about other teachers at your school that 
aren't?
    Mr. O'Leary. I think most of the staff at Hawk Ridge--
nobody was really reluctant to accept this. But I think it was 
nice that we rolled it out in a way that--the PTA was generous 
enough to buy iPads for all of the teachers at our school, 
knowing that in the next year, we would start to buy more and 
more iPads for the school, giving us, as teachers, an 
opportunity to troubleshoot and figure out what problems our 
students are going to run into.
    But then it was nice that we rolled it out in stages. We 
didn't just throw technology to all the students and to the 
whole school and just--``Here you go. Just do what you can with 
it.'' We took it step by step and changed what we were doing 
every step of the way.
    We saw what worked and what didn't work, what we needed to 
change. It was nice to collaborate with other teachers on my 
team and other teachers in the school and just see what was 
working.
    Senator Hagan. Do you have time after school during 
professional development time to really coordinate with the 
other teachers?
    Mr. O'Leary. Yes. Our technology teacher is amazing. We 
have tech time, and she highlights great things that we can put 
into our classroom or great things that other teachers have 
been using in their classrooms. And we have professional 
development on different Web sites and things like that, Gaggle 
and Glogster, that we can then get acclimated with.
    Senator Hagan. Gaggle and Glogster? I'm not familiar with 
Glogster. What is that?
    Mr. O'Leary. It's like an online pin board, or like an 
online cork board, where you can go on and post everything 
about a topic onto one web page, and then it links you from 
there to go all over.
    Senator Hagan. Eric, let me ask you a question. What 
happens when a piece of technology breaks here at Phillip O. 
Berry Academy? Who fixes it? And who pays for that to get 
fixed? Whose fault is it, if it breaks?
    Mr. Graham. I'm not sure who pays for it. But I know we 
have a great technology fixer here, Mr. Saintvilus. Any time 
something breaks down, our teachers pick up one of the school 
phones and just call him right up, and he's on his way ASAP, 
and he's here. And he fixes the problem with the technology as 
best he can, and he gets it running back to optimal level where 
it should be at all times. So Mr. Saintvilus is our technology 
fixer, so to speak.
    Senator Hagan. Dr. Smith, let me ask you a question about 
that, too, because I know with some students, just having 
access to that, it can be broken. I can remember when my son 
went to college. He became part of the SWAT team, and the SWAT 
team was Students With Access to Technology. He was paid. He 
got there early. When students came in, he'd set up everything 
that needed to be set up, connect, and all that kind of stuff.
    What happens when it breaks? And who pays for it?
    Mr. Smith. Sure. First of all, before any student in our 
district gets a device, they and their parents sit through 
training.
    Senator Hagan. Their parents, too?
    Mr. Smith. Their parents, too, every year. And we talk to 
them about appropriate use and care for the machine. They know 
what they're responsible for. They sign a policy, our 
responsible use policy. They sign it every year.
    Senator Hagan. What if the parent doesn't come in?
    Mr. Smith. We do whatever it takes to get that parent to 
sign. And we have gone to the parents' places of business to 
make that happen. But every parent signs. It's not an option. 
If you're going to go to school in Mooresville, you're going to 
do this. So we do whatever it takes to reach those parents.
    So they understand up front what their responsibility is 
and those types of things. And damage does occur. But then 
there's always an investigation as to whether or not it's 
accidental or it's negligence. If it's negligence, they're 
responsible for it, and we talk to them about that from the 
beginning. So it's very up front.
    I'm actually going to defer to Dale, because Dale works at 
our student help desk at the high school. So he can kind of 
give you a more hands-on perspective.
    Senator Hagan. So you're a SWAT team member.
    Mr. Miller. Yes, ma'am. Every school in our district 
actually has a help desk. And what that is, is basically just a 
technology center for all things that do go wrong. You know, 
that does happen. It's pretty common.
    So what happens is if a student has a particular problem 
with their laptop, whether it be broadband, networking, or just 
a mechanical problem, they come down. And our help desk at the 
high school is a little bit different, because we have student 
workers, like Dr. Smith said, and I'm one of those.
    We have a teacher in there. His name is Mr. Sherrill, and 
he works with Apple. He's very familiar with the machines and 
what we need to do to fix them. He teaches us how to repair 
them and how to refer, if we need to, to him to get the right 
thing fixed, the right thing managed well, and get it running 
smoothly. Sometimes it's very interesting, but it's very fun to 
do.
    Senator Hagan. Great.
    Ms. Thibault, when you have students coming in from 13 
different congressional districts to the School of Science and 
Math, are all of them as up to speed with technology equally? I 
mean, I would think not.
    Ms. Thibault. Certainly not.
    Senator Hagan. So what do you do to help those students?
    Ms. Thibault. We provide tremendous amounts of support, 
especially initially. The students are required to go through 
some online course modules to learn how to use the technology, 
so they're learning online.
    Senator Hagan. And this is once they're there?
    Ms. Thibault. Once they've been accepted, there's summer 
work. There are also some of our faculty that run some online 
support to prepare students for coming in to use mathematical 
modeling software or other--they preemptively know, because of 
experience, that students are going to come in at different 
levels of preparedness. We engage with them when they're 
accepted in order to make sure that they're prepared.
    Just like with course offerings, smaller schools and rural 
schools don't always have as many of the options available to 
them. So we have to meet them where they are and individualize 
and take them where they need to go.
    Senator Hagan. Ms. Obaei, how about in your situation? 
You've been teaching for how many years?
    Ms. Obaei. Two years.
    Senator Hagan. So when you came in 2 years ago, I'm just 
wondering--not any names--but are there other faculty at your 
school who are hesitant to use technology? Can you sense any of 
the issues, maybe not just at your school, but at other schools 
where your student was taught, things like that?
    Ms. Obaei. I think any hesitation that might come up is 
just from lack of knowledge, really not knowing how to handle 
devices and technology. I know that, specifically, at Kennedy, 
we have Technology Tuesdays, when we all sit and kind of share 
about what's going on and look at professional development on 
maybe a new application or a new Web site.
    And just generally, we share a lot of our technology. We 
share computer labs. We share Google Chromebooks and iPads. So 
it's kind of created a sense of camaraderie among the 
technology natives and the technology immigrants, people who 
are coming into the world of technology.
    Just as an example, a staff member whose room is right next 
to mine is a technology immigrant, and she is hesitant, but 
really just needs a lot of help with technology. I sat with her 
one morning and did a new application for her to control her 
music in her classroom. And since then, I hear her music all 
the time in my classroom.
    [Laughter.]
    So any hesitation is quickly squashed just with a little 
bit of development and knowledge. And everyone is very open to 
that.
    Senator Hagan. That is just a little bit. For some people, 
it must take much longer.
    Ms. Obaei. Sure. I can imagine that it must be very 
difficult, just the idea of everything that we do online and 
everything we do using technology that we haven't in years 
past. It must be difficult to make that transition. But I think 
once that transition is made, or while you're in the process of 
it, it's so much simpler.
    Senator Hagan. Dr. Smith, let me ask you that same 
question. When you all first got started, how difficult was it 
to get the teachers up to speed with the students that were 
coming in?
    Mr. Smith. It was a challenge. I'll be very honest. We had 
probably 25 percent of our teachers that were like Raha and 
were very early adopters and kind of jumped on it. We had 
probably 50 percent of our teachers that were fence riders, and 
they thought, ``Oh, this may be another fad. This may go away. 
I'm just going to sit back and see what happens.''
    And then the other 25 percent were the laggards. They were 
like, ``No, we're not going to do this.'' But over time, when 
teachers started to see the interaction that students have and 
the ability that they have--I kind of term it exponential 
potential that students now have that they didn't have before.
    And we talked about access for every student. You don't 
have to be the student that has access to technology just at 
school. You can now take it home with you. So when teachers 
started to see that in their students and see that light bulb 
go off and see students engaged in what was going on, it really 
changed their teaching practice. Now, that's gradual.
    But our philosophy in Mooresville was that we're all here 
in North Carolina, and we're all moving west. Now, some of us 
are already in Texas, and some of us are in Ashville. But as 
long as we're all moving, then we're going in the right 
direction.
    Over time, that first group has grown. The laggard group is 
extremely small now. Some of them have retired. Some of them 
have found other places to go. The majority of them, however, 
have jumped on the bandwagon.
    Senator Hagan. Well, that's great.
    Ms. Thibault, I know you have a lot of incredible faculty 
at the School of Science and Math, and not everybody is 
teaching in the distance learning part. Do you have teachers 
that are still using textbooks and blackboards?
    Ms. Thibault. Oh, certainly. We certainly do. Blackboards 
are still alive and well in some of the classrooms. But with 
the students having a device and the potential for things like 
mathematical modeling, computational science, the integration 
of computer science throughout the curriculum, really, there's 
no way to not teach with technology at Science and Math. I 
think we truly are STEM. The T and the E are not silent in our 
school.
    Senator Hagan. Very good. Well, I'm going to bring this 
hearing to a close, and I really appreciate your time, each and 
every one of you, and, specifically, here at Phillip O. Berry 
Academy. I do want to say that having listened to all of you 
here, I know there's another part of North Carolina that 
doesn't have the access to technology that the people here at 
this table do.
    But I do think that we in North Carolina are truly leading 
the way in implementing this digital learning. We're doing so 
much in our State to ensure that our children get the best 
education possible, and I believe that other States should look 
to us as an example as to how we push educating our children 
into the 21st century. I am going to take this information back 
with me to our Health and Education Committee.
    I do, once again, say thank you to everybody. I know it's 
taken a lot of time to prepare for this setup here. And as a 
member of this Health and Education Committee, my colleagues 
and I are looking forward to working together to make 
significant changes to the No Child Left Behind law. One of my 
top priorities is updating the education technology portion of 
that bill to make sure that it reflects and that it supports 
the good work that we've heard about here today.
    I want to thank the principal here and the staff for 
hosting us. I really cannot say enough about the great things 
that are happening at schools like the Phillip O. Berry 
Academy, Montlieu Academy, all of Mooresville, and what we're 
doing here in North Carolina to really set the stage for moving 
children, our students, into the 21st century. We've got to do 
it, and we've got to bring everybody with us in doing so.
    I do want to close this hearing, Educating for the 21st 
Century: Bringing Today's Classrooms Into the Digital Age.
    The Senate Committee on Health, Education, Labor, and 
Pensions is now adjourned. Thank you very much.
    [Whereupon, at 3:23 p.m., the hearing was adjourned.]

                           [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
